Office of Inspector General


March 8, 2012

MEMORANDUM

TO:	                 John Peevey, Director
                     Office of Management Services

FROM:	               Joy Kadnar, Director /s/
                     Inspections and Evaluations Division, Office of Audit

SUBJECT:	 Proposed Solutions for Storing the Household Effects of USAID Direct-Hire
          Employees (No. 2-000-12-004-S)

   As indicated in my February 14 memorandum to you, I am identifying a number of problems
and suggesting solutions related to storing the household effects of USAID direct-hire employees.
Your action on these matters could improve the efficiency of USAID’s storage operations.

    We identified problems during our survey work and discussions with USAID personnel in
the Office of Management Services’ Travel and Transportation Division (M/MS/TTD), the Chief
Financial Officer’s Cash Management and Payments Division (CFO/CMP), and the Office of
Human Resources (OHR). We are proposing solutions to address these problems and to improve
the overall management of storage operations. Please note that our proposed solutions are not
formal recommendations and do not require a response from you.

     1.	 Vendor Billing. We learned that vendors use variable billing cycles—weekly, monthly,
         or quarterly. This variability is problematic because it means staff must spend extra time
         and effort overseeing storage payments and managing vendor relationships. We propose
         the following solution to improve efficiency:

          •	 Coordinate with CFO/CMP to standardize vendor billing cycles, and communicate
             billing terms and conditions to storage vendors.

     2.	 Storage Tracking System. M/MS/TTD does not have a comprehensive, up-to-date
         system that captures basic storage data for employees. Storage information is incomplete
         and kept in two different systems. M/MS/TTD is coordinating with the State Department
         to develop a new system during the next 2 years. Until it is ready, we propose the
         following solution to minimize missing information and facilitate verification of storage
         invoices:

U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
                                           -2-



   •	 Develop and maintain an inventory of employees and their storage vendors. Include
      relevant storage dates—start date, access date, end date—and the combined weight of
      items stored by multiple vendors.
3.	 Internal Controls Over Storage Payments. Weaknesses exist in internal controls for
    verifying and approving payments for storage services, and these weaknesses could
    increase the chance of duplicate payments. For example, we observed that M/MS/TTD
    does not review and approve requests by employees to store items at a location outside
    the Washington area using public and self-storage vendors; instead, OHR typically
    approves these alternative storage options. We propose the following solutions to
    increase M/MS/TTD’s control over storage vendors and payments:

   •	 Develop and document standard operating procedures for approving storage
      payments. Besides verifying employee eligibility, procedures should include
      verifying the accuracy of dates, prices, and calculations for invoiced amounts and
      following up on late invoices.

   •	 Assign responsibility for reviewing and approving alternative storage options for
      employees’ effects to appropriate personnel in M/MS/TTD.

   •	 Require employees using alternative storage options to provide adequate
      documentation, including storage bills based on weight, and financial certifications of
      vendors who are not included on the GSA schedule or covered by State Department
      contracts for storage services.

4.	 Information Sharing. OHR seldom shares a direct hire’s employment status with
    M/MS/TTD, preventing M/MS/TTD from communicating such information to storage
    vendors and informing employees of their responsibility for stored items. We propose
    the following solutions to increase the efficiency of storage operations:

   •	 Obtain a commitment from OHR to notify M/MS/TTD every time an employee
      transfers, separates, or retires from USAID.

   •	 Notify storage vendors when an employee has separated or retired from the Agency.

   •	 Remind employees that it is their responsibility to remove items from storage within
      the authorized period, typically 90 days after transferring to Washington, separating,
      or retiring from the Agency.

5.	 Cost Control. Employees lack incentives to economize when storing household effects.
    M/MS/TTD acknowledges that opportunities for cost savings exist, and it has recently
    begun considering innovative ways to realize savings. We propose the following
    solution:

   •	 Offer employees incentives to remove obsolete items from storage after 8 to 10 years of
      continuous overseas service to lower the weight of stored effects and save the Agency
      money.
                                             -3-



    If you have any questions concerning the content of this memorandum, please contact me at
jkadnar@usaid.gov or Rameeth Hundle at rhundle@usaid.gov. Thank you again for your
cooperation throughout this effort.

cc: Frances Staunton, Chief, M/MS/TTD
    Cathy Collins, Chief, M/ICFO
    Alfred Sandy, Acting Chief, M/CFO/CMP
    John Sawh, M/CFO/CMP
    Patricia Kristobek, Chief, M/CIO/BSE
    Susan Riley, Chief, HR/FSP
    Barbara English, Supervisory IT Specialist, HR/PPIM
    Gloria White, Chief, M/CFO/APC
    Jeanetta Marshall, M/CFO/APC
